Audit of USAID/Brazil’s Performance
     Monitoring for Indicators


        Audit Report No. 1-512-00-005-P
                 July 17, 2000




          Regional Inspector General
                San Salvador
                  U.S. A GENCY FOR
                  INTERNATIONAL
                   DEVELOPMENT

                  RIG/San Salvador


                  July 17, 2000


                  MEMORANDUM

                  FOR:               USAID/Brazil Director, Janice M. Weber

                  FROM:              Acting RIG/A/San Salvador, Steven H. Bernstein

                  SUBJECT:           Audit of USAID/Brazil’s Performance Monitoring for
                                     Indicators (Report No. 1-512-00-005-P)

                  This memorandum is our report on the subject audit. In finalizing the report,
                  we considered your comments on the draft report. Your comments on the
                  draft report are included in Appendix II.

                  This report contains five recommendations for your action. Based on the
                  information provided by the Mission, management decisions have been
                  reached on these recommendations. A determination of final action for these
                  recommendations will be made by the Office of Management Planning and
                  Innovation (M/MPI/MIC) when planned corrective actions are completed.

                  I appreciate the cooperation and courtesy extended to my staff during the
                  audit.



     Background   Brazil is simply big. Its land mass exceeds the size of the continental United
                  States, its population of over 160 million is the fifth largest in the world, its
                  economy is the world’s tenth largest, its Amazon basin is the world’s largest
                  tropical rain forest, its trade with the United States is the thirteenth largest in
                  the world, and its approximate 60 million people living in poverty is the
                  largest in the Western Hemisphere. Within this setting, USAID/Brazil has
                  focused the majority of its approximate $14 million annual program in the



Page 1 of 18                                                         Audit Report No. 1-512-00-005-P
                      environment with smaller programs in HIV/AIDS, reproductive health,
                      energy, and at-risk youth.

                      In March 1999, USAID/Brazil submitted its annual Results Review and
                      Resource Request (R4)—the most significant performance report of the
                      Mission—highlighting fiscal year 1998 program accomplishments and fiscal
                      year 2001 strategic directions. Underpinning the Mission’s annual R4 report
                      is a USAID-prescribed performance monitoring system which encompasses:
                      (1) establishing performance indicators; (2) preparing performance
                      monitoring plans; (3) setting performance baselines; (4) collecting
                      performance data; and (5) assessing data quality.


   Audit Objectives   This audit is part of a worldwide series of audits that are being conducted by
                      USAID’s Office of Inspector General (OIG). USAID’s Office of Policy and
                      Program Coordination (PPC) requested the audits and, with the OIG, jointly
                      developed the audit objective and methodology. The Office of the Regional
                      Inspector General/San Salvador performed this audit to review the Mission’s
                      performance monitoring system and, specifically, to answer the following
                      audit objective:

                      h      Did USAID/Brazil monitor performance in accordance with
                             Automated Directive System E203.5.5 and other relevant guidance
                             as demonstrated by indicators appearing in its Results Review and
                             Resource Request report for fiscal year 2001?

                      Appendix I describes the audit's scope and methodology.



     Audit Findings   Did USAID/Brazil monitor performance in accordance
                      with Automated Directive System E203.5.5 and other
                      relevant guidance as demonstrated by indicators
                      appearing in its Results Review and Resource
                      Request report for fiscal year 2001?
                      USAID/Brazil generally monitored performance in accordance with
                      Automated Directive System (ADS) E203.5.5 and other relevant guidance
                      as demonstrated by indicators appearing in its R4 report for fiscal year
                      2001.

                      In all, the Mission’s R4 report included 20 performance indicators for
                      on-going activities. In collaboration with the Mission’s staff, we decided to
                      focus our testing on eight performance indicators that encompassed all five
                      of the Mission’s strategic program areas. For these eight indicators, the


Page 2 of 18                                                          Audit Report No. 1-512-00-005-P
               Mission had prepared a detailed performance monitoring plan that included
               indicator descriptions and units of measurement, data sources, data collection
               schedules, data calculation methodologies, and data acquisition and analysis
               responsibilities within the Mission. In addition, the Mission had established
               baseline data for all indicators in order to measure progress toward strategic
               objectives. The Mission’s reported baseline data was always consistent in
               methodology with fiscal year 1998 reported results, except for one case in
               which the Mission used the best available data.

               Nevertheless, in our review, we identified four aspects of the Mission’s
               performance monitoring system that should be improved. The Mission
               needs to: (1) assess data sources and methodologies of its performance
               indicators; (2) ensure that reported results are accurate, supported, and
               complete; (3) be more precise in indicator definitions and data collection
               methodologies; and (4) update its performance monitoring plan at regular
               intervals. These areas are discussed below and are summarized in Appendix
               III.

               Performance Indicators’ Data Were Not Assessed

               ADS E203.5.5e states that “Data quality will be assessed as part of the
               process of establishing performance indicators and choosing data collection
               sources and methods. Data quality will be reassessed as is necessary, but at
               intervals of no greater than three years.” The USAID Center for
               Development Information and Evaluation issued TIPS Number 12
               (Guidelines for Indicator and Data Quality) to provide guidance for assessing
               data quality. It states that it is important to take a critical look at
               performance measurement systems and data sources from time to time to
               make sure that indicators are still measuring what we think they are
               measuring and that data are being collected in the way that we intend.
               Assessments should be systematic, documented, and cover all performance
               indicators.

               Due to staff not being familiar with the ADS requirement, the Mission had
               not assessed data quality for six of the eight performance indicators. In one
               case, independent audits served adequately as a data quality assessment for
               the reproductive health indicator, financial sustainability of the Sociedade
               Civil Bem-Estar Familiar no Brazil (BEMFAM) program. In another case,
               the environmental indicator, number of conservation units in which
               government or private owners adopt aspects of sustainable management
               systems in addition to target areas, was too simple to require a data quality
               assessment. For the remaining six indicators, the Mission had not
               systematically assessed its indicators’ data quality.

               The lack of familiarity with this ADS requirement has been repeatedly noted
               in prior OIG audit reports for different USAID missions. This can be


Page 3 of 18                                                   Audit Report No. 1-512-00-005-P
               attributed, in part, to the ADS format. The requirement for data quality
               assessments is in section 203, which deals with monitoring and evaluating
               performance. However, the ADS requirement for data quality assessments is
               both for initial assessments when establishing indicators and reassessments
               at intervals no greater than three years. Nevertheless, ADS 201, which deals
               with planning, is silent about the requirement even though data quality
               assessments are part of the planning process.              Additionally, the
               requirement/guidance lacks sufficient detail to guide missions in performing
               data quality assessments.

               Beyond the data quality assessment requirement, USAID/Brazil should also
               be concerned with consistency of data collection methodologies. For
               example, the Mission’s environmental performance indicators gather data
               from up to seven partners against the same performance indicator definition.
               Consequently, consistency of methodology is not only an issue from year to
               year, but also from different partner data sources within the same reporting
               period. For instance, for the environmental performance indicator, number
               of persons trained (those with a high school diploma), the reported result
               was inaccurate due to miscalculations of both the partners and the Mission.

                      Recommendation No. 1: We recommend that USAID/Brazil ensure
                      that all performance indicators in its R4 prepared in 2001 be
                      assessed (including consistency of methodologies across multiple
                      reporting partners) and at regular intervals thereafter (but no less
                      than every 3 years); or fully disclose in the R4: (1) why indicators
                      were not assessed, (2) the resulting limitations in the confidence in
                      data quality, and (3) a time frame for assessing the performance
                      indicator.

               Reported Results Were At Times Inaccurate, Not Supported, Or
               Based On Incomplete Data

               Federal laws and regulations require federal agencies to develop and
               implement internal management control systems that: (1) compare actual
               program results against those anticipated; (2) provide for complete, reliable,
               and consistent information; and (3) ensure that performance information is
               clearly documented and that the documentation is readily available for
               examination. TIPS Number 12 notes that data reliability requires a
               consistent data collection process. Otherwise, errors can occur which
               compromise the accuracy of reported results.

               Specifically, in regard to accuracy, for the purposes of this audit we
               employed two materiality thresholds. First, for transcription error, we used
               an accuracy threshold of 2 percent for the comparison of source
               documentation to the reported result. Second, for computational error, we
               employed an accuracy threshold of 5 percent for computations of results.


Page 4 of 18                                                   Audit Report No. 1-512-00-005-P
               Based on these thresholds and criteria, six of the eight reported results were
               inaccurate, unsupported, or based on incomplete data. Descriptions of these
               cases are as follows.

               •   One AIDS performance indicator was percentage changes of sales of
                   female condoms. The 1998 reported result was 276,065 units sold.
                   However, documentation showed that the result was based on calendar
                   year data instead of available fiscal year data as required by ADS
                   203.5.9a. The recalculated figure, based on the fiscal year, was 232,500
                   units—a difference of 16 percent.

               •   One at-risk youth performance indicator was percentage of program-
                   assisted youth promoted to the next school grade. The 1998 reported
                   result was 86 percent. Supporting documentation showed that the result
                   was 86 percent, but was based on incomplete data with 25 percent of the
                   program participants not being counted. This data limitation was not
                   revealed in the R4. In addition, documentation showed that the reported
                   1996 baseline data was actually from 1992.

               •   One environmental performance indicator was number of conservation
                   units in which government or private owners adopt aspects of
                   sustainable management systems in addition to target areas. The 1998
                   reported result was 10 conservation units. According to Mission
                   recalculated figures, the result was seven units—a difference of 30
                   percent. The correction was reported in the following year’s R4.

               •   One environmental performance indicator was number of persons
                   trained (those with a high school diploma). The 1998 reported result
                   was 3,582 person months and 3,826 persons trained—both cumulative
                   figures from program inception. According to later recalculated figures
                   by the Mission, these results were 3,676 persons months of training and
                   3,017 persons trained—differences of 3 percent and 21 percent,
                   respectively. We tested the 1998 incremental increase of 949 person
                   months of training and noted that the largest component of 591 person
                   months of training came from World Wildlife Fund (WWF) programs.
                   Within this figure of 591 person months, we asked WWF to provide
                   supporting documentation for the largest component consisting of 264
                   person months of training. However, neither WWF nor the Mission had
                   available documentation to support this calculation.

               •   One environmental performance indicator was national and local
                   policies which support biodiversity conservation and natural resources
                   management implemented and/or policy implementation improved. The
                   1998 reported result was 12 policy initiatives. The Mission had
                   supporting documentation for 11 of these policies—a difference of 8
                   percent. One policy did not attain 80 percent of its benchmarks for the


Page 5 of 18                                                   Audit Report No. 1-512-00-005-P
                   year, which consisted of two planned for fiscal year 1997 and two for
                   fiscal year 1998. It attained the two planned for fiscal year 1997, but
                   not the two for fiscal year 1998. In addition, the reported figure is
                   supposed to be a cumulative figure, but the 2001 R4 did not note this.
                   This particular performance indicator also had several shortcomings in
                   its definition and unit of measure which are discussed later.

               •   One reproductive health performance indicator was financial
                   sustainability of the BEMFAM program. The 1998 reported result was
                   72 percent. (This result was accidentally omitted from the 2001 R4, but
                   was tested based on the reported result in a draft of the 2002 R4.)
                   However, supporting documentation showed that the result was 62
                   percent—a difference of 14 percent.

               Although in several cases, the Mission staff had identified these errors in
               reported results prior to the start of the audit, the inaccuracy of the reported
               results can be generally attributable, in part, to a lack of clear procedures and
               methodology to assess the quality of data sources. Mission management and
               staff have not generally assessed data sources and methodologies as
               discussed in the preceding section. Mission management noted that they
               have spent a considerable amount of time assessing the quality of their
               indicators, but not a commensurate amount of time assessing the quality of
               data underlying those same indicators. Management also noted that they
               have probably relied too heavily on their partners to ensure the quality of the
               data so as to avoid micro-managing. In addition to these management issues,
               errors were also due to simple miscalculations and an over-reliance on initial
               oral reporting from partners.

               USAID/Brazil officials also noted that almost half of the Mission portfolio
               in fiscal year 1999 was directly funded by Washington bureau actions.
               Consequently, Washington bureaus have been heavily involved in
               designing results frameworks and resultant indicators for the AIDS,
               energy, reproductive health, and at-risk youth strategic program areas.
               However, indicators are often established that are theoretically good, but
               are not practical due to constraints in data collection. For example, the at-
               risk youth results framework has been revised (with almost all new sets of
               indicators) three times in the past five years. Additionally, local partners
               report principally to Washington bureaus with local reporting being of
               secondary importance.

               TIPS Number 12 notes that sound decisions by USAID management require
               accurate, current, and reliable information. However, without reliable
               performance data, decision makers have little assurance whether an
               operating unit exceeded or fell short in achieving its program objectives and
               related targets. In our opinion, the problems cited in this report with respect
               to the accuracy, support, and completeness of results reporting impair


Page 6 of 18                                                     Audit Report No. 1-512-00-005-P
               USAID/Brazil’s and USAID management’s ability to (1) measure progress
               in achieving program objectives and (2) use performance information in
               budget allocation decisions. In regard to ensuring that performance data in
               its R4 are accurate, supported, and complete, the Mission should review, for
               the R4 prepared in 2001, all indicator results for accuracy, support, and
               completeness prior to issuance.

                      Recommendation No. 2: We recommend that USAID/Brazil ensure
                      that the performance results in its R4 prepared in 2001 are
                      accurate, supported, and based on complete data, or, if complete
                      data are not available, that the lack thereof be communicated in
                      the R4 comments section.

               Some Indicator Definitions and Data Collection Methodologies
               Lacked Precision

               ADS E203.5.5b states that “Performance monitoring plans shall be
               prepared for … each operating unit's strategic plan. Information included
               in a performance monitoring plan shall enable comparable performance
               data to be collected over time, even in the event of staff turnover, and shall
               clearly articulate expectations in terms of schedule and responsibility.
               Specifically, performance monitoring plans shall provide a detailed
               definition of the performance indicators that will be tracked; specify the
               source, method of collection and schedule of collection for all required
               data; and assign responsibility for collection to a specific office, team or
               individual.” TIPS Number 7 (Preparing a Performance Monitoring Plan)
               provides further guidelines for preparing mission performance monitoring
               plans.

               Using this criteria, five of the eight performance indicators needed more
               precise definitions and/or data collection methodologies. Descriptions of
               these cases are as follows.

               •   One AIDS performance indicator was percentage changes of sales of
                   female condoms. The 1998 reported result was 276,065 units sold,
                   which was based on calendar year data. The recalculated fiscal year
                   result was 232,500 units. The data collection method in the
                   performance monitoring plan noted “Sales Tracking Reports and
                   Invoices.” However, this general description was not detailed enough
                   to allow for consistent future data collection. No “Sales Tracking
                   Report” or invoices were used for data collection. The actual data
                   collection method for the fiscal year 2001 R4 report utilized a report
                   entitled, “Quarterly AIDS Mark Progress Report.” As such, it (or
                   whichever specific source is used) should be explicitly included in the
                   performance monitoring plan.



Page 7 of 18                                                   Audit Report No. 1-512-00-005-P
               •   One energy performance indicator was clean and efficient energy
                   projects under development, which are funded by mechanisms, created,
                   leveraged, or supported by USAID. The 1999 reported result was one
                   project. The indicator definition in the performance monitoring plan
                   used a unit of measure of “projects” whereas the indicator was actually
                   measuring programs, each with numerous projects. In addition, the
                   performance monitoring plan’s data collection methodology (as well as
                   data sources) was vague. During the course of the audit fieldwork, these
                   ambiguities were corrected by the Mission in its performance monitoring
                   plan.

               •   One environmental performance indicator was number of conservation
                   units in which government or private owners adopt aspects of
                   sustainable management systems in addition to target areas. The
                   1998 reported result was 10 conservation units. The recalculated
                   result was seven units. The method of data collection outlined in the
                   performance monitoring plan is vague.           It discussed broader
                   dissemination activities and stated that representatives will be
                   subsequently surveyed (through questionnaires, site visits) to identify
                   the extent to which sustainable management practices have been
                   adopted. This did not indicate which representatives (or who) were to
                   be surveyed and explicitly by what means. The data source was also
                   vague in that it cited a survey of conservation units as opposed to a
                   survey of the organizations themselves. In addition, the reported result
                   was a cumulative figure, but the performance monitoring plan, as well
                   as the fiscal year 2001 R4, did not note this.

               •   One reproductive health performance indicator was financial
                   sustainability of the BEMFAM program. The 1998 reported result was
                   72 percent. The documented result was 62 percent. The R4 indicator
                   description and the performance monitoring plan definition differed in
                   terminology (resources versus revenues) and data calculation. The R4
                   indicator description was “percentage of BEMFAM expenses covered by
                   locally generated resources.”      The performance monitoring plan
                   indicator definition was “the difference between the institution total
                   expenses (including acquisition of commodities) and the generated
                   revenues from the commercial activities.” In addition, the data collection
                   method in the performance monitoring plan was vague. It stated “data
                   will be provided by BEMFAM’s accounting system.”

               Without precise indicator definitions and data collection methodologies in
               the Mission’s performance monitoring plan, USAID/Brazil was without a
               critical tool for planning, managing, and documenting data collection. For
               example, the errors cited in reporting fiscal year 1998 results can be
               attributable, in part, to deficiencies in the performance monitoring plan.
               The performance monitoring plan contributes to the effectiveness of the


Page 8 of 18                                                   Audit Report No. 1-512-00-005-P
               Mission’s performance monitoring system by ensuring that comparable
               data will be collected on a regular and timely basis. Without precise
               indicator definitions and data collection methodologies, USAID/Brazil did
               not have assurance that it was maintaining essential controls to the
               operation of a credible and useful performance-based management system.
               Otherwise, results reporting may be disrupted or compromised by staff
               turnover, data may not be comparable from one period to the next, and the
               Mission does not have a detailed roadmap to manage its performance
               monitoring process. Performance monitoring plans bring together the
               details of the performance monitoring process that would otherwise only
               be found in a myriad of contractor, grantee, host government and Mission
               documents.

                      Recommendation No. 3: We recommend that USAID/Brazil correct
                      its performance monitoring plan to precisely define performance
                      indicators, including units of measurement, and to precisely
                      describe performance indicator data collection methodologies.

               As discussed in detail below, in one case the indicator definition, unit of
               measurement, and data collection method were severely flawed and
               confusing in several respects. Consequently, the indicator purpose, “to
               report the progress of selected policy-related initiatives supported by
               USAID,” was neither measurable nor clear from the indicator results.

               •   One environmental performance indicator was national and local
                   policies which support biodiversity conservation and natural resources
                   management implemented and/or policy implementation improved. The
                   1998 reported result was 12 policy initiatives. The documented result
                   was 11 policy initiatives. The unit of measure was the “number of
                   policy-related activities that have met at least 80 percent of their
                   annual benchmarks divided by the total number of policy-related
                   activities underway (cumulative).” However, the indicator was flawed
                   in several respects.

                   1. First, meeting the 80 percent threshold, required, in effect, meeting
                      100 percent of the annual benchmarks. This was as a result of the
                      number of benchmarks never being more than four in any one year
                      and usually less. Accordingly, the 80 percent figure was of no
                      consequence and implied a greater level of sophistication than the
                      indicator actually measured.

                   2. Second, it was unclear when a benchmark was not attained in a
                      particular year, whether it was then added to the benchmarks for
                      possible attainment in the following year to determine the
                      percentage of benchmarks that were attained.



Page 9 of 18                                                  Audit Report No. 1-512-00-005-P
                   3. Third, although this indicator was noted as a cumulative result, it
                      was not being assessed as such. Consequently, if a policy was
                      already counted, then it would not be available for counting again
                      in future years. Yet, Mission staff were assessing policy related
                      initiatives of policies already counted in prior years yet on different
                      benchmarks. Additionally, once a policy was counted in a
                      particular year as having met its target, it was then supposed to be
                      carried forward in the cumulative total in out-years. However, this
                      had two effects: (1) there could have been (and likely were)
                      additional important benchmarks that the partner was working to
                      achieve that were not being measured and (2) future positive and
                      negative results were not being measured—the attainment or lack
                      of attainment of policy related activities.

                The purpose of the indicator according to the performance monitoring plan
                was “to report the progress of selected policy—related initiatives
                supported by USAID.”           However, as structured, the Mission’s
                performance indicator definition, including the unit of measurement, did
                not effectively measure this progress.

                       Recommendation No. 4: We recommend that USAID/Brazil revise
                       the performance indicator, national and local policies which
                       support biodiversity conservation and natural resources
                       management implemented and/or policy implementation improved,
                       so as to have a precise indicator definition, unit of measurement,
                       and data collection method allowing for clarity and measurable
                       progress.

                Performance Monitoring Plan Needs To Be Updated At Regular
                Intervals

                TIPS Number 7 states that “performance monitoring plans should be
                updated as needed to ensure plans, schedules, and assignments remain
                current.” USAID/Brazil had not updated its performance monitoring plan
                prior to the start of the fiscal year 2002 R4 preparation and data collection,
                even though some indicator characteristics, including data collection
                methodologies, had changed.

                       Recommendation No. 5: We recommend that USAID/Brazil establish
                       a specific schedule to update its performance monitoring plan at
                       regular intervals.




Page 10 of 18                                                   Audit Report No. 1-512-00-005-P
     Management       USAID/Brazil agreed with the report and it is planning to implement each of
     Comments and     the five report recommendations. Based on the information provided by the
     Our Evaluation   Mission, management decisions have been reached on Recommendation
                      Nos. 1, 2, 3, 4, and 5.




Page 11 of 18                                                       Audit Report No. 1-512-00-005-P
                                                                                    Appendix I
    Scope and     Scope
    Methodology
                  The Office of the Regional Inspector General/San Salvador conducted an
                  audit, in accordance with generally accepted government auditing standards,
                  to determine if USAID/Brazil was monitoring performance in accordance
                  with USAID guidance as demonstrated by indicators appearing in its fiscal
                  year 2001 R4 report. The audit covered indicators in all five strategic
                  program areas of the Mission. In fiscal years 1998 and 1999, USAID/Brazil
                  obligated $13.9 million and $13.5 million, respectively, in support of these
                  five program areas. The audit was conducted at USAID/Brazil in the capital
                  city, Brasilia, from March 21, 2000, through May 18, 2000.

                  Methodology

                  Specifically, the audit objective was to determine if USAID/Brazil
                  monitored performance in accordance with Automated Directive System
                  E203.5.5 and other relevant guidance as demonstrated by indicators
                  appearing in its Results Review and Resource Request report for fiscal year
                  2001. In answering the audit objective, we tested whether the Mission:

                  •   established indicator baseline data either in the strategic plan or a
                      subsequent R4 report;
                  •   prepared a performance monitoring plan that contained a detailed
                      definition of indicators that set forth precisely all technical elements of
                      the indicator statements;
                  •   prepared a performance monitoring plan that identified all data
                      sources;
                  •   prepared a performance monitoring plan that described the data
                      collection method in sufficient detail to enable consistent use in
                      subsequent years;
                  •   prepared a performance monitoring plan that specified frequency and
                      schedule of data collection;
                  •   prepared a performance monitoring plan that assigned responsibility
                      for collecting data;
                  •   completed an assessment of data quality for the indicators either at the
                      establishment of the indicator or at an interval no greater than three
                      years;
                  •   reported data that was adequately supported by source documents;
                  •   reported baseline data in the R4 that were comparable to the data
                      reported for the indicator in fiscal year 1998; and
                  •   disclosed known data limitations (if any) in the comments section of
                      the R4 report.

                  In order to test these aspects of the Mission’s performance monitoring
                  system, we interviewed officials as well as reviewed and tested
                  documentation at USAID/Brazil. Such documentation included Mission


Page 12 of 18                                                      Audit Report No. 1-512-00-005-P
                                                                                 Appendix I

                staffing and organization; annual Mission R4 reports; supporting
                documentation for R4 reported results; Mission strategic plan for fiscal years
                1998 to 2002; Mission internal control assessment for fiscal year 1999;
                Mission performance monitoring plan and revision; Bureau reviews of
                Mission results; USAID and Bureau R4 guidance including USAID Center
                for Development Information and Evaluation (CDIE) TIPS Numbers 6, 7, 8,
                and 12; Mission procurement plans; Mission historical funding data; and
                Brazil country data. We also reviewed applicable prior Office of Inspector
                General audit reports.

                Our audit opinion to answer the audit objective was based on many and
                varied factors. For example, for each performance indicator we assessed five
                aspects in the Mission’s performance monitoring plan (definition including
                unit of measurement, data sources, data collection methodology, data
                collection schedule, and responsibilities) as well as indicator data quality
                assessments, baseline data, and source documentation. Although we did
                numerically summarize these aspects (for example, see Appendix III) and
                also used numerical materiality thresholds for assessing accuracy, the
                combination of these varied factors could not adequately be reduced
                collectively to one strict overall numerical scoring system or threshold in
                forming our audit opinion. Consequently, we relied on our professional
                judgement.

                The Mission’s R4 included 20 performance indicators for on-going
                activities. At the beginning of the audit fieldwork, we devised a
                methodology, in collaboration with the Mission staff, to focus our testing on
                eight indicators. (In the case of two indicators, we tested 1999 reported
                results, instead of 1998, due to the closing of the prior energy program and
                the use of new indicators for the AIDS program.) These eight indicators
                were chosen so as to cover all five of the Mission’s strategic program areas
                with an emphasis on environmental indicators (three were chosen) given
                that the majority of the Mission’s approximate $14 million annual
                program was for the environment. Five criteria were used to determine
                which performance indicators were reviewed. The primary criteria were as
                follows.

                •   First, did the performance indicator measure activities which currently
                    represent the most important components of the program?
                •   Second, was the specific performance indicator reported in both the
                    fiscal year 2001 and fiscal year 2002 R4s?

                The secondary criteria were as follows.

                •   Third, was the performance indicator unidimensional, measuring just
                    one data element?




Page 13 of 18                                                   Audit Report No. 1-512-00-005-P
                                                                               Appendix I

                •   Fourth, did the indicator measure program results as opposed to
                    participation or outputs?
                •   Fifth, did the performance indicator measure the sustainability of the
                    program?

                In assessing accuracy, we employed two materiality thresholds. First, for
                transcription error, we used an accuracy threshold of 2 percent for the
                comparison of source documentation to the reported result. Second, for
                computational error, we employed an accuracy threshold of 5 percent for
                computations of results. Our review did not assess several aspects of the
                Mission’s performance monitoring for indicators including (1) the
                development and supporting documentation of out-year targets and (2)
                results reported in the narrative portion of the R4.

                We also reviewed applicable internal controls to obtain a sufficient
                understanding of the design of relevant internal control policies and
                procedures. The relevant internal controls were limited to the Mission’s
                systems for R4 results reporting.




Page 14 of 18                                                 Audit Report No. 1-512-00-005-P
                                Appendix II




Page 15 of 18   Audit Report No. 1-512-00-005-P
                                Appendix II




Page 16 of 18   Audit Report No. 1-512-00-005-P
                                Appendix II




Page 17 of 18   Audit Report No. 1-512-00-005-P
                                                                                                                                                                   Appendix III

                              SUMMARY OF USAID/B RAZIL'S P ERFORMANCE MONITORING C ONTROLS
                                                                    In the Performance Monitoring Plan…                                                     In the R4…
                                     1.             2.          3.            4.          5.            6.                7.             8.           9.                 10.
                                                                                  Data         Data                                        Data        Baseline             Data
                  Abbreviated                       Indicator      Data        Collection   Collection                    Data Quality    Agrees      Comparable         Limitations
 Indicator          Indicator          Baseline     Precisely    Sources         Method      Schedule    Responsibility   Assessment        with        to 1998           Disclosed
 Number               Name           Established?   Defined?    Identified?   Described?   Specified?      Assigned?        Done?        Source?        Result?           (if any)?
               Number of
SO1            conservation units
Environment    with adopted          Yes            Yes         Yes          No           Yes           Yes               N/A            No           Yes                N/A
SO1 #2         systems in addition
               to target areas
SO1            Number of persons
Environment    trained (with high    Yes            Yes         Yes          Yes          Yes           Yes               No             No           Yes                N/A
IR2 #2         school diploma)
               Policies
SO1            implemented or        Yes            No          Yes          No           Yes           Yes               No             No           Yes                N/A
Environment    implementation
IR 1.3-a       improved
               Clean projects
SO2            under development     Yes            No          No           No           Yes           Yes               No             Yes          Yes                N/A
Energy         that are supported
IR3 #1         by USAID
SO3            Number of
AIDS           effective programs    Yes            Yes         Yes          Yes          Yes           Yes               No             Yes          N/A                N/A
SO3 #1         or organizations
SO3            Percent changes of
AIDS           sales of female       N/A            Yes         Yes          No           Yes           Yes               No             No           N/A                N/A
IR3 #1         condoms
SO4            Financial
Reproductive   sustainability of
Health         the BEMFAM            Yes            No          No           No           Yes           Yes               Yes            No           Yes                N/A
IR2 #1         program
SpO1           Percent of program
Risk Youth     youth promoted to     Yes            Yes         Yes          Yes          Yes           Yes               No             Yes          No                 No
IR2 #1         next grade
Total No
(x out of 8)                               0              3           2            5            0              0                6             5               1                1




Page 18 of 18                                                                                                                                     Audit Report No. 1-512-00-005-P
